Circuit C&ur4- if AplucJc
OrcUr

d&jUd

bf&fck f^2b26~

fjiflio W \~jlomjl 71i Pf6aid Jr forntL
P&Mfunf df\d fjPfiidmJ if DitlaftUiof)
Sf] Juppbf-f if HlJno f\c Lmlv^ J~t

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2685
United States of America
Appellee
v.
Antwoyn Terrell Spencer
Appellant
No: 19-2691
United States of America
Appellee
v.
Derrick Jerome Spencer
Appellant

Appeal from U.S. District Court for the District of Minnesota
(0:07-cr-00174-JRT-l)
(0:07-cr-00174-JRT-2)
ORDER
These are consolidated pro se appeals arising from the District Court’s orders denying
First Step Act relief. The appellants have fried motions to supplement the record and to expedite
the appeals, and these motions are denied.
After reviewing the briefs and the District Court records in the cases, the court has
determined that counsel should be appointed for appellants, and the Federal Public Defender for
the District of Minnesota is hereby appointed to represent the appellants.
It is further ordered that counsel file a supplemental brief addressing the following issues:

(1) whether section 404 of the First Step Act applies to a defendant serving a sentence for a dual­
object conspiracy, charged in a single count, that involved an agreement to distribute at least 50
grams of cocaine base and at least 5 kilograms of powder cocaine; and
(2) whether a defendant who is serving concurrent sentences for one offense that is a “covered
offense” and for another offense that is not a “covered offense” is eligible for a sentence
reduction under section 404 of the First Step Act.
Appellant’s supplemental brief is due April 10, 2020, and appellee’s brief is due May 11,
2020.

March 06, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

PROOF OF SERVICE
I, Antwoyn Terrell Spencer, certify that I am sending the above petition for Writ of Mandamus to the
Clerk of Court of the United States Supreme Court and the Solicitor General's office at the addresses
listed below. It is being sent via United States Mail with correct postage prepaid.
/s/ ANTWOYN TERRELL SPENCER
Sent to:
Clerk of the Court
U.S. Supreme Court
1 First Street NE
Washington DC 20543
And,
Solicitor General
Department of Justice
950 Pennsylvania Ave Room 5614
Washington DC 20530

(Dated: 7/2/20)

